No.

IN THE SUPREME COURT OF THE UNITED STATES

DEONDRE ARTHUR STATEN, Petitioner,
vs.
RONALD DAVIS, Respondent.

PROOF OF SERVICE
I, Jerry L. Newton, declare as follows: as required by Supreme Court Rule 29, on October
27, 2020, I served the enclosed MOTION TO PROCEED IN FORMA PAUPERIS AND
PETITION FOR WRIT OF CERTIORARI (WITH APPENDICES) on each of the
following, by placing a true copy thereof in a sealed package with first class postage fully
prepaid, in the United States mail at Carmel, California addressed as follows:
SCOTT A. TARYLE
Supervising Deputy Attorney General
300 South Spring Street, Ste. 1702
Los Angeles, CA 90013
Telephone: 213-269-6073
Deondre Arthur Staten
P.O. Box H-23500
San Quentin State Prison
San Quentin, CA 94964
I declare under penalty of perjury under the laws of the United States that the foregoing
is true and correct and that I signed this declaration of October 27, 2020.
S/
Jerry L. Newton

